.,

.~~~ ~"~~
N~TIC~

~~ed
,~~of this o~

2019 IL App (1st) 163184

~
b~fqhQ~ime ~f
a Pe~~~
~i~aa
~g

SIXTH DIVISION
December 27, 2019
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

No. 1-16-3184
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,

Appeal from the
Circuit Court of
Cook County.

►~~

No. 16 CR 2276

STEVEN SPAIN,

Honorable
Timothy Joseph Joyce,
Judge Presiding.

Defendant-Appellant.

PRESIDING JUSTICE MIKVA delivered the judgment of the court, with opinion.
Presiding Justice Griffin concurred in the judgment and opinion.
Justice Walker dissented, with opinion.
OPINION
¶1

Following a stipulated bench trial, defendant Steven Spain was found guilty of aggravated

unlawful use of a weapon (AUUV~ for possessing a concealed and loaded handgun with no valid
Firearm Owner's Identification (FOID) card (720 ILCS 5/24-1.6(a)(1), (a)(3)(C) (West 2014)) or
concealed carry license (720 ILCS 5/24-1.6(a)(1), (a)(3)(A-5) (West 2014)). Mr. Spain received
the statutory minimum sentence of one year in prison. The trial court had earlier denied Mr. Spain's
motion to quash his arrest and suppress evidence, agreeing with the State that the arresting officers
had both a reasonable suspicion of illegal activity to detain Mr. Spain for questioning and probable
cause to arrest him and seize the firearm. Mr. Spain now challenges that ruling. For the reasons
that follow, we affirm.

No. 1-16-3184

¶2
¶3

I.BACKGROUND
At a suppression hearing held on May 17, 2016, Mr. Spain called Officer Michael

O'Connor, an 11-year veteran of the Chicago Police Department and a member of its gang
enforcement unit since 2009.Officer O'Connor testified that, on the afternoon of January 27, 2016,
he and his partners, Officers Pouzlp and Perez, were on plainclothes patrol in an unmarked police
vehicle, with Officer O'Connor seated in the vehicle's front passenger seat. Although not in full
uniform, Officer O'Connor was wearing a vest with a police insignia and his service belt, which
held his weapon, handcuffs, and radio.
¶4

The three officers arrived at 718 West 48th Street in Chicago in response to an anonymous

call regarding "a man with a gun," described to them as "a male Hispanic with tattoos on his face."
There they saw, according to Officer O'Connor, "five male Hispanics and one male white"—
Officer O'Connor identified the latter as Mr. Spain—standing in the front yard of an abandoned
residential building. Just before Officer O'Connor exited the vehicle, he observed Mr. Spain, from
a distance of between 10 and 14 feet, "turn toward the fence in the area and try to stuff a large
black object down his pants consisting of a gun handle."
¶5

Officer O'Connor approached Mr. Spain and told him to put his hands in the air. According

to the officer, Mr. Spain "complied for a second," but then "[1]ooking nervously he kept attempting
to put his hand back in his pocket." Officer O'Connor, now a foot or two away, again told Mr.
Spain to put his hands in the air. He then had Mr. Spain put his hands down on a nearby vehicle
and performed a patdown. Feeling what he believed to be the weapon whose handle he had seen,
Officer O'Connor asked one of the other officers at the scene to retrieve it from where it had begun
to fall into Mr. Spain's pant leg. The recovered weapon was a "black .38 Special handgun with a
five-inch barrel [and] six shots loaded." Officer O'Connor then immediately placed Mr. Spain

-2-

No. 1-16-3184

under arrest.
¶6

Officer O'Connor acknowledged that, when he made the arrest, he did not yet know Mr.

Spain's name and had not checked to see whether Mr. Spain had a valid FOID card or concealed
carry license. Aside from observing that Mr. Spain appeared to be in possession of the gun in a
public place (unlawful without a valid FOID card or concealed carry license (430 ILCS 65/2(a)(1),
(c-5) (West 2016))) and that the gun was partially concealed (unlawful without a concealed carry
license (720 ILCS 5/24-1.6(a)(1), (a)(3)(A-5) (West 2014); 430 ILCS 66/10(c)(1) (West 2014))),
Officer O'Connor had not seen Mr. Spain violate any local, state, or federal law.
a

¶7

On cross-examination by the State, Officer O'Connor explained that he was familiar with

local gang activity. The 700 West block of 48th Street is territory of the Satan Disciples, a street
gang that was then "at war" with the Insane Deuces of Canaryville. On the afternoon that this all
occurred, in addition to the anonymous tip about a man with a gun, there was an officer safety alert
in place, based on a tip that the Insane Deuces were, according to Officer O'Connor, "planning to
shoot up the address of 720 West 48th Street because ahigh-ranking member of the Satan Disciples
was known to live in that building." The yard of the abandoned building, where Mr. Spain and the
five individuals he was with were seen standing, was immediately adj acent to the address identified
in the officer safety alert.
¶8

Nothing obstructed Officer O'Connor's view when he saw Mr. Spain conceal what he

believed was a handgun in his pants. According to the officer, Mr. Spain looked nervous when the
police vehicle arrived on the scene and "really nervous" when he was asked to put his hands up.
When he conducted the patdown, Officer O'Connor knew the object that he felt near Mr. Spain's
waistband was a gun because it felt just like the revolver the officer himself carried.
¶9

Based on this testimony, defense counsel urged the trial court to find that the officers, who

-3-

No. 1-16-3184

lacked any information regarding whether Mr. Spain possessed a valid concealed carry license,
did not have the requisite reasonable suspicion of criminal activity to detain and search him, let
alone probable cause to arrest him and seize the gun as evidence. Pointing out that Mr. Spain did
not run away, did not throw anything, and complied with the officers' orders, defense counsel
insisted that the officers could not have reasonably inferred from Mr. Spain's behavior that he
lacked proper documentation for the weapon or intended to remove or fire it.
¶ 10

Noting that it found Officer O'Connor to be, "without qualification," acredible witness,

the trial court first concluded that, "[i]n connection with [the] gang activity or no," having seen
Mr. Spain hide a gun from the officers in the waistband of his pants, Officer O'Connor had "every
reason * * * to do a Terry stop," including a protective patdown for officer safety. Terry v. Ohio,
392 U.S. 1 (1968). The court nevertheless felt compelled by this court's decision in People v.
Holmes, 2015 IL App (1st) 141256—which had not yet been reversed by our supreme court
(People v, Holmes, 2017 IL 120407)—to grant Mr. Spain's motion to suppress, on the basis that
the officers, having made no effort to determine if Mr. Spain possessed a concealed carry license,
lacked probable cause to arrest him and seize the gun. In Holmes, this court held that a motion to
quash arrest and suppress evidence was properly granted where probable cause was based on the
defendant's mere possession of a firearm, under a portion of the AUUW statute later declared
unconstitutional in People v. Aguilar, 2013 IL 112116. Holmes, 2015 IL App (1st) 141256, ¶ 3'8.
Our supreme court, however, held that if probable cause existed at the time of arrest, it would not
be retroactively eliminated by the holding in Aguilar. Holmes, 2015 IL App (1st) 141256, ¶¶ 39-

¶ 11

The State in this case moved the trial court to reconsider, arguing that because Mr. Spain

was arrested after Aguilar and the State in his case never claimed that the mere possession of a gun

-4-

No. 1-16-3184

could establish probable cause, the appellate court decision in Holmes was not controlling. The
State's position in this case was that, because of Mr. Spain's "nervous demeanor and constant
attempt to put his hands in his pants, after Officer O'Connor ordered him numerous times to put
his hands up," the officers had probable cause to believe Mr. Spain was not merely carrying a gun
but was doing so without the requisite FOID card or concealed carry license---offenses that were
not affected by Aguilar. As the assistant state's attorney argued, "[i]t just doesn't make sense ***
that he would be trying to hide something that he could legally carry."
¶ 12

Defense counsel countered that people are often nervous around police officers, whether

or not.they have committed a crime, and it is a simple matter for officers to ask a suspect. for
necessary documentation before making an arrest.
¶ 13

The trial court granted the State's motion to reconsider. The trial judge wondered why

anyone who had gone through the onerous process of obtaining a concealed carry license should
not be expected to voluntarily provide it to officers if stopped and questioned. In the absence of
such a voluntary disclosure, the court asked, "couldn't [a] reasonable police officer conclude[,]
not as a matter of proof beyond a reasonable doubt, but as probable cause, * * * that the person
probably [didn't] have [the required documentation]?" Defense counsel argued that a finding of
probable cause based on a suspect's failure to volunteer information would "be putting the burden
on everyone to ensure that officer's [sic] are making lawful arrests" when "it's the officer's duty
to make lawful arrests." The trial court rejected this argument.
¶ 14

The trial court acknowledged that the Firearm Concealed Carry Act (Concealed Carry Act

or Act) (430 ILCS 66/1 et seq. (West 2014))—which had not yet been enacted when the defendant
in Holmes was arrested, but which took effect before Mr. Spain'sarrest—only requires individuals
to present their concealed carry licenses to law enforcement when asked to do so (430 ILCS

-5-

No. 1-16-3184

66/10(h) (West 2014)). Nevertheless, the court concluded that Mr. Spain's failure to voluntarily
produce such a license in this case gave the officers probable cause to conclude that his possession
of the gun was unlawful.
¶ 15

Mr. Spain waived his right to a jury trial. At thebench trial, the parties stipulated to the

admissibility of Officer O'Connor's testimony at the suppression hearing. The parties further
stipulated that (1) if called to testify, Officers Salgado and Pouzlp would provide chain-of-custody
testimony for the weapon, and (2) on the day in question, Mr. Spain did not have a valid FOID
card or concealed carry license. Finally, the court heard argument on whether the State had proved
beyond a reasonable doubt that the residential property where Mr. Spain was arrested was in fact
abandoned, since if it was land or a legal dwelling place where Mr. Spain was entitled to be as an
invitee, he could not be found guilty of AUUW.
¶ 16

Mr. Spain was found guilty of three counts of AUUW. The trial court merged the counts,

and, because Mr. Spain had no prior felony record, sentenced him to the statutory minimum
sentence of one year in prison. The court denied Mr. Spain's motion for a new trial.
¶17
¶ 18

f~~i~i~~~~~[~]►1
Mr. Spain was sentenced on November 14, 2016, and filed his notice of appeal the same

day. We have jurisdiction pursuant to article VI, section 6, of the Illinois Constitution (Ill. Const.
1970, art. VI, § 6) and Illinois Supreme Court Rules 603 (ef£ Feb. 6, 2013) and 606 (ef£ Dec. 11,
2014), governing appeals from final judgments of conviction in criminal cases.
~¶ 19
¶ 20

On appeal, Mr. Spain challenges the trial court's denial of his motion to quash his arrest

and suppress evidence. While the parties focused their arguments in the trial court on whether there
was probable cause to arrest, on appeal they concentrate almost exclusively on whether a

No. 1-16-3184

reasonable suspicion of criminal activity justified the initial Terry stop. In our view, both questions
must be considered. Each involves a separate analysis, and our answer to each has different
implications. Officer O'Connor certainly needed a reasonable suspicion of criminal activity before
he could stop Mr. Spain for questioning and pat him down for weapons. And if that investigative
stop was not justified, it would be appropriate to suppress the gun and any testimony regarding the
gun as fruit of the poisonous tree. But, even if the Terry stop was justified, Officer O'Connor was
required to have probable cause before arresting Mr. Spain or seizing the gun as evidence. If there
was no probable cause, Mr. Spain was free to leave after the investigative stop and the gun should
have been returned to him. 725 ILCS 5/108-1.01 (West 2014).
¶ 21

For the reasons that follow, we find both that there was a sufficient basis for a Terry stop

and, based on - what occurred during that permissible stop, that Officer O'Connor had probable
cause to arrest Mr. Spain and to seize his gun.
¶ 22

The right to be free from unreasonable searches and seizures is protected by both the United

States and Illinois Constitutions. U.S. Const., amend. IV; Ill. Const. 1970, art. I, § 6. Underlying
this right is a desire to balance society's interest in protecting citizens from "rash and unreasonable
interferences with [their] privacy," against its interest in providing officers "fair leeway for
enforcing the law in the community's protection." (Internal quotation marks omitted.) People v.
James, 163 Ill. 2d 302, 311 (1994). Subject to only a few exceptions, a warrantless search or seizure
conducted outside of the judicial process is per se unreasonable. People v. LeFlore, 2015 IL
116799, ¶ 17:
¶ 23

One of those exceptions is an investigative "Terry stop." In Terry, 392 U.S. at 30, the

United States Supreme Court held that a police officer may stop an individual for temporary
questioning where the officer "observes unusual conduct which leads him reasonably to conclude

-7-

No. 1-16-3184

in light of his experience that criminal activity may be afoot." In Illinois, this requirement is
codified in section 107-14 of the Code of Criminal Procedure of 1963 (Code) (725 ILCS 5/107-14
(West 2014)). To initiate a Terry stop, an officer must have "more than an inarticulate hunch"; he
or she "must be able to point to specific and articulable facts which, taken together with rational
inferences from those facts, reasonably warrant [the] intrusion." (Internal quotation marks
omitted.) People v. Colyar, 2013 IL 111835, ¶ 40. In assessing whether a Terry stop was justified,
the facts must be considered, not "with analytical hindsight" but "from the perspective of a
reasonable officer at the time that the situation confronted him or her." People v. Thomas, 198 Ill.
2d 103, 110 (2001). Once a stop is initiated, if the officer justifiably believes that the individual
whose suspicious behavior he or she is investigating at close range is armed and dangerous, the
officer also may conduct a patdown search for a weapon. Terry, 392 U. S. at 24; People v. Sorenson,
196 Ill. 2d 425 (2001). If a weapon is found, the officer may confiscate it "until the completion of
the questioning," at which time he or she must "either return [it], if lawfully possessed, or arrest
the person so questioned." 725 ILCS 5/108-1.01 (West 2014).
¶ 24

Probable cause—which is something more than a mere suspicion of criminal activity

(People v. Culbertson, 305 I11. App. 3d 1015, 1024 (1999))—is needed for an officer to make a
warrantless arrest. People v. Brannon, 308 Ill. App. 3d 501, 504 (1999). "[T]he existence of
probable cause depends upon the totality of the circumstances at the time of the arrest." (Internal
quotation marks omitted.) People v. Hopkins, 235 Ill. 2d 453, 472 (2009). The facts known to the
officer must be "sufficient to lead a reasonably cautious person to believe that the arrestee has
committed a crime." (Internal quotation marks omitted.) Id. Although it is a more demanding
standard than the reasonable suspicion of criminal activity needed to initiate an investigative stop
(Alabama v. White, 496 U.S. 325, 330 (1990)), probable cause " `does not deal with hard

No. 1-16-3184

certainties, but with probabilities' " (Illinois v. Gates, 462 U.S. 213, 231-32 (1983) (quoting United
States v. Cortez, 449 U.S. 411, 418 (1981))). These probabilities are " `the factual and practical
considerations of everyday life on which reasonable and prudent men, not legal technicians, act.' "
Id. at 231 (quoting Brinegar v. United States, 338 U.S. 160, 175 (1949)). "[P]robable cause is a
fluid concept—turning on the assessment of probabilities in particular factual contexts—not
readily, or even usefully, reduced to a neat set of legal rules." Id. at 232.
¶ 25

Incident to a lawful arrest, an officer may search the person arrested "and the area within

such person's immediate presence" and may seize "any instruments, articles, or things which may
have been used in the commission of, or which may constitute evidence of, an offense." 725 ILCS
5/108-1(1)(d) (West 2014). But as section 108-1.01 of the Code and the case law make clear, if
the information that officers gather during an investigative stop does not give rise to probable
cause, they must return any item—even aweapon—found during the stop. Id.; see also 4 Wayne
R. LaFave, Search and Seizure § 9.6(d) (5th ed. 2012) (noting that where an investigative stop is
justified but does not give rise to probable cause, an "officer is entitled to retain even an object
which could be used as a weapon only until such time as the seizure of the suspect is terminated");
People v. Raibley, 338 Ill. App. 3d 692, 700 (2003) (noting that an item discovered during a lawful
search may be seized only if police "have probable cause to believe it is contraband or evidence
of a crime," and "[t]he incriminating character of the item [is] immediately apparent at the time of
the seizure").
¶ 26

The burden of proving that a search and seizure was unlawful is on the defendant. 725

ILCS 5/114-12(b) (West 2014). "If the defendant makes a prima facie case that *** evidence was
obtained through an illegal search, then the State can counter with its own evidence" that the search
was lawful. People v. Lampitok, 207 Ill. 2d 231, 239 (2003). If a search and seizure is deemed

No. 1-16-3184

unlawful, section 114-12(b) of the Code provides that "the property shall be restored" and, "unless
otherwise subject to lawful detention, * * * shall not be admissible in evidence against the movant
at any trial." 725 ILCS 5/114-12(b) (West 2014). This is a codification of the judicially created
exclusionary rule, pursuant to which the State is precluded from using "the fruits of a past unlawful
search or seizure" at trial where this will serve to deter future fourth amendment violations. Arizona
v. Evans, 514 U.S. 1, 10-11 (1995).
¶ 27

Atrial court's ruling on a motion to suppress evidence is subject to a dual standard of

review. People v. Johnson, 237 Ill. 2d 81, 88 (2010) (citing Ornelas v. United States, 517 U.S.
690, 699 (1996)). We defer to the court's factual findings and credibility determinations,
disregarding them only where they are against the manifest weight of the evidence. Id. But we
review de novo the trial court's ultimate determinations regarding the existence of reasonable
suspicion or probable cause and its application of the exclusionary rule. People v. McDonough,
239 Ill. 2d 260, 266 (2010); People v. Carlson, 185 Ill. 2d 546, 551 (1999).
,¶ 28

Mr. Spain was arrested for possessing an uncased, loaded, and immediately accessible

partially concealed weapon in a public place. As the defense stresses, since our supreme court
struck down a section of the AAUW statute that categorically prohibited the possession of an
operable firearm outside the home as unconstitutional in Aguilar, 2013 IL 112116, ¶ 22,
possession of a loaded gun in public is not necessarily unlawful. However, possession of an
uncased, loaded, and immediately accessible weapon in a public place is still unlawful unless that
weapon is fully or partially concealed and the person in possession of that weapon has been issued
a concealed carry license. 720 ILCS 5/24-1.6(a)(1), (a)(3)(A-5) (West 2014); 430 ILCS
66/10(c)(1) (West 2014)).
¶ 29

A concealed carry license is issued only to persons who have applied, paid a licensing fee,

-10-

No. 1-16-3184

been approved by the Department of State Police, and meet certain criteria, which include but are
not limited to being. at least 21 years of age, having a currently valid FOID card, not having been
convicted in any state of a crime involving the use of physical force or violence within 5 years of
applying, and completing firearms training. 430 ILCS 66/10(a) (West 2014) (referencing licensing
requirements contained in section 25 of the Act (430 ILCS 66/25 (West 2014))). The Concealed
Carry Act also requires that a licensee possess the license at all times that the licensee carries a
concealed firearm in public. 430 ILCS 66/10(g) (West 2014).
¶ 30
¶ 31

A. Reasonable Suspicion to Conduct a Terry Stop
Mr. Spain's position on appeal is that, taken together or separately, the circumstances on

the afternoon in question did not give rise to a reasonable, articulable suspicion that any criminal
activity was afoot. Mr. Spain insists that the officers, having "little more than a suspicion that [Mr.
Spain] possessed afirearm"—which is not necessarily acrime—had no right even to stop and
question him. We disagree.
¶ 32

Mr. Spain is correct that the uncorroborated anonymous tip concerning "a male Hispanic

with tattoos on his face" did not implicate Mr. Spain in any way. Thus, the tip could not have given
rise to a "reasonable suspicion" of criminal activity by Mr. Spain. Our supreme court has held that
"[a] tip from an anonymous person may supply the requisite quantum of suspicion to conduct a
Terry stop" only if "the information bears some indicia of reliability." People v. Henderson, 2013
IL 114040, ¶ 26. The tip must be reliable not only in its " `tendency to identify a determinate
person,' "but also " `in its assertion of illegality.' " Id. (quoting Florida v. J.L., 529 U.S. 266, 272
(2000)). It must show that the anonymous informant has "inside information" by, for example,
"accurately predicting] future behavior." (Internal quotation marks omitted.) Id. Here, the tip
described a person who looked nothing like Mr. Spain.

No. 1-16-3184

¶ 33

The officer safety alert, however, warning that members of the Insane Deuces were, in

Officer O'Connor's words, "planning to shoot up the address of 720 West 48th Street because a
high-ranking member of the Satan Disciples was known to live in that building," is different. While
the record does not contain information about the cooperating individual who provided this tip,
the tip itself provided specific details—the identities of the two rival gangs, a street address, and a
motive—that Officer O'Connor testified were consistent with what he knew about gang territories
and behavior in that area. And although the tip did not describe a particular suspect, it alerted
officers that multiple armed gang members planned to convene at a specific address. Officer
O'Connor and his partners observed a group of six men—including Mr. Spain, who appeared to
have a gun handle sticking out of the waistband of his pants—standing in the yard of an abandoned
building immediately next door to the address in the officer safety alert.
¶ 34

This background must be considered together with what the officers saw when they arrived

on the scene. Officer O'Connor saw Mr. Spain with what appeared to him to be a partially
concealed firearm. He also saw Mr. Spain turn away from him toward a fence "and try to stuff a
large black object down his pants consisting of a gun handle." Mr. Spain's conduct as the officers
approached was to move his gun from its partially concealed location to a completely concealed
position down his pants. This was, in Officer O'Connor's words, "unusual conduct," supporting a
Terry stop.
¶ 35

Witnessing this, at close range and with an unobstructed view, provided Officer O'Connor

with more than a vague "hunch" that Mr. Spain was in illegal possession of a gun; it, together with
the other information the officer had, provided him with a reasonable suspicion that Mr. Spain was
in possession of a weapon and that illegal gun possession or other criminal activity. "may be afoot."
We agree with the trial court in this case that the officer's observations of Mr. Spain—together

-12-

No. 1-16-3184

with the officer safety alert and anticipated gang activity—formed a sufficient basis for Officer
O'Connor to stop Mr. Spain for the purpose of an investigative stop.
B. Probable Cause to Arrest and Seize the Gun as Evidence

¶ 36
¶ 37

Mr. Spain was arrested for illegal gun possession, which required the police to have

probable cause to believe not only that Mr. Spain was carrying a gun but that he was doing so
illegally. The Concealed Carry Act makes clear that once a Terry stop has been initiated, an officer
may ask an individual found in possession of a concealed or partially concealed gun to produce
his or her concealed carry license. 430 ILCS 66/10(h} (West 2016). It is that license that allows an
individual to "carry a loaded or unloaded concealed firearm, fully concealed or partially concealed,
on or about his or her person." 430 ILCS 66/10(c)(1) (West 2016). The Act requires, with
exceptions that are not relevant here, that "[a] licensee shall possess a license at all times the
licensee carries a concealed firearm." 430 ILCS 66/10(g) (West 2016). The Act also specifically
provides:
"If an officer of a law enforcement agency initiates an investigative stop, including but not
limited to a traffic stop, of a licensee * * *, upon the request of the officer the licensee
shall disclose to the officer that he or she is in possession of a concealed firearm under this
Act, or present the license upon the request of the officer if he or she is a licensee * * * ."
(Emphases added.) 430 ILCS 66/10(h) (West 2016).
¶ 38

The problem here is that the arresting officers did not make any request of Mr. Spain for

his concealed carry license. If they had, and he had failed to produce it, there would not be any
question as to whether there was probable cause to arrest him. The State contends that the evidence
was nonetheless sufficient, after the police engaged in their brief encounter with Mr. Spain, to
arrest him. The trial court in this case agreed.

-13-

No. 1-16-3184

¶ 39

What occurred during this stop was very limited. According to Officer O'Connor, he told

Mr. Spain to put up his hands; and Mr. Spain "complied for a second" but then "[l]ooking
nervously he kept attempting to put his hand back in his pocket." Officer O'Connor, now one or
two feet away, again told Mr. Spain to put his hands in the air. He then had Mr. Spain put his hands
down on a nearby vehicle and performed a patdown. Feeling what he believed to be the weapon
whose handle he had seen, Officer O'Connor asked one of the other officers at the scene to retrieve
it from where it had begun to fall into Mr. Spain's pant leg. The recovered weapon was a "black
38 Special handgun with afive-inch barrel [and] six shots loaded." Officer O'Connor then
immediately placed Mr. Spain under arrest.
¶ 40

During this exchange, all that occurred is that Mr. Spain continued to act nervously, kept

attempting to put hishands in his pockets, and never indicated to the officers that he was carrying
the gun legally. The police were also able to confirm that Mr. Spain was carrying a weapon and
that it was loaded. This is not a case like People v. Thomas, 2019 IL App (1st) 170474, where
police officers approached the defendant in the common area of a multiunit apartment building
and saw him hand off his gun to a friend and flee upstairs into one of the apartments. ld. ¶ 1. The
friend, finding himself locked out of the apartment, then threw the gun onto the second-stair
landing. ld. ¶ 6. In this case, Mr. Spain did not flee but stood nervously while the police confirmed
that he was carrying a handgun and recovered it from where he had placed in his waistband.
¶ 41

The trial court relied in significant part on the fact that, during this exchange, Mr. Spain

did not volunteer to the police that he had a license to carry the gun. While there are valid reasons
why an individual approached by police officers might choose to remain silent, even after the
police have recovered a gun, we agree that an individual's choice not to volunteer that he has a
concealed carry license when a gun is found on his person is an additional factor that police are

-14-

No. 1-16-3184

entitled to take into account when they determine whether there is probable cause to arrest that
individual and seize the gun, rather than return it to him, as they would otherwise have been
required to do. As the leading commentator on the fourth amendment has noted, the expectation
that an innocent person will want to explain otherwise suspicious circumstances is a commonsense notion police may consider when making a probable cause determination. See 4 Wayne R.
LaFave, Search and Seizure § 3.6(fl (5th ed. 2012) ("common sense 'suggests that as a general
matter innocent persons confronted with the fact that they are under police suspicion and called
upon to clarify the situation will respond with some sort of explanation")
¶ 42

At the same time, we want to reiterate, as this court noted recently in Thomas, that an

" `arrest first, determine licensure later' method of police patrol," is not what the Concealed Carry
Act contemplates. Thomas, 2019 IL App (1st) 170474, ¶ 40. When officers arrest someone found
in possession of a gun without first asking whether he or she is legally entitled to be carrying that
gun, the police are at significant risk that they are arresting a suspect without the requisite probable
cause, such that any fruits of that arrest will be inadmissible in a criminal prosecution. In short,
where an officer elevates a Terry stop into an arrest, without making the simple request that the
Concealed Carry Act contemplates; he or she takes a risk that the arrest may later be quashed, and
any resulting evidence suppressed.
IV. CONCLUSION

¶ 43
¶ 44

For the above reasons, we affirm the trial court's denial of Mr. Spain's motion to quash his

arrest and suppress evidence and we affirm his conviction.
~[ 45

Affirmed.

-15-

No. 1-16-3184

¶ 46

JUSTICE WALKER, dissenting:

¶ 47

I respectfully dissent.

¶ 48

The majority presents compelling arguments to reverse the trial court. The majority agrees

that simply possessing a gun is not a criminal act in itself and that there are "valid reasons why an
individual approached by police officers might choose to remain silent." Supra ¶ 41. Despite these
acknowledgements, the majority rules incorrectly.
¶ 49

Gun possession alone is not enough to create probable cause to arrest, and silence in the

face of multiple approaching officers is not unreasonable or inherently suspicious. However, the
majority relies on Mr. Spain's silence to find probable cause for his arrest. Even with the attendant
circumstances, Mr. Spain's silence is insufficient to have created probable cause because Illinois
law does not require a weapons suspect to volunteer his or her concealed carry license.
¶ 50

The trial judge found that it could be "reasonably concluded] that if somebody doesn't

volunteer that they have a firearm owner's identification card and certainly a concealed carry
license, that the officer could then reasonably conclude that the person did not so as to justify the
arrest of the person [and] the seizure of the gun." The trial judge made this finding, in violation of
Illinois law. Under the Concealed Carry Act, when an officer initiates an investigatory stop, the
licensee is not required to disclose information until the officer makes a request. 430 ILCS 66/10(n)
(West 2016). Once the request is made, the licensee shall disclose to the officer that he or she is in
possession of a concealed firearm under the Act, present his or her license to the officer, and
identify the location of the concealed firearm. 430 ILCS 66/10(h) (West 2016).
¶ 51

There was an officer's safety alert for the area surrounding 720 West 48th Street following

a confidential informant's (CI) tip of a planned gang shootout at a nearby address. Then, the
officers received an anonymous call of "a man with a gun" described as "a male Hispanic with

-16-

No. 1-16-3184

tattoos on his face." Officer O'Connor, an 11-year veteran with 7 years in gang enforcement,
arrived to find Mr. Spain and five Hispanic males standing at 718 West 48th Street. He then noticed
what appeared to be the butt of a gun in Mr. Spain's waist band. The anonymous tip, despite being
the impetus for the officers' visit, should not be factored into the reasonable suspicion analysis. It
had no indicia of reliability, being anonymous and wildly incorrect. Similarly, the State failed to
provide any evidence of reliability for the tip from the CI regarding the planned shooting.
However, given Officer O' Connor's experience and familiarity with gangs in the area and Mr.
Spain possessing a gun next door to the address described as the potential situs for a gang shooting,
there were specific articulable facts to justify the investigative stop.
¶ 52

I disagree that there was probable cause for the arrest. The Act only requires the subject of

the Terry stop to present his or her concealed carry license "upon the request of the officer." 430
ILCS 66/10(h) (West 2016). The Act does not require voluntary disclosure. Here, there was never
a request. Expecting someone to volunteer information when confronted by police officers is
contrary to both the fourth amendment and the legislative intent, and this court should not impose
that burden on citizens.
¶ 53

The trial judge originally made the correct decision at the conclusion of the suppression

hearing. The trial judge recognized that the officers made no effort to determine if Mr. Spain
possessed a concealed carry license and lacked probable cause to arrest. However, the trial judge
reversed himself after the State filed a motion to reconsider. Here, the majority states that "an
individual's choice not to volunteer that he has a concealed carry license" is an "additional factor"
for the police to determine probable cause. Supra ¶ 41. However, it was the sole factor here.
Immediately after officers performed the patdown of Mr. Spain and confirmed the existence of the
gun, they arrested him. Other than the gun, they knew nothing more about Mr. Spain than they did

-17-

No. 1-16-3184
before they began the Terry stop. They did not even know his name at that point. The majority
quotes an article that states "common sense suggests that as a general matter innocent persons
confronted with the fact that they are under police suspicion and called upon to clarify the situation
will respond with some sort of explanation." 4 Wayne R. LaFave, Search and Seizure § 3.6(fl (5th
ed. 2012). This notion turns the fifth amendment on its head. Mr. Spain had a right to remain silent
and does not have to incriminate himself. The majority's finding that Mr. Spain must tell the police
of his conceal carry is simply not the law of Illinois and may lead this state down a slippery slope.
The majority's decision raises serious questions of where to draw the line. Does this mean that
every time someone is approached by police, he or she is required to volunteer the use of legal
marijuana or alcohol? The law is clear that an individual stopped by police does not have to admit
to anything and may remain silent.
¶ 54

The majority notes that if a weapon is found after a patdown, the officer may confiscate it

"until the completion of the questioning," at which time he or she must "either return [it], if
lawfully possessed, or arrest the person so questioned." Supra ¶ 23. 725 ILCS 5/108-1.01 (West
2016). If the police believed Mr. Spain was in illegal possession of a gun, they had a simple and
powerful tool within their discretion. to eliminate doubt: one single request. I reiterate, the Act
allows police officers to request a gun owner's concealed carry license. Upon request, the gun
owner is required to furnish the license (430 ILCS 66/10(h) (West 2016)); if the owner is unable
to furnish it, the police then have probable cause to arrest. Here, the officers were one question
away from a valid arrest. The majority states that the Act does not contemplate an "arrest first,
determine licensure later." (Internal quotation marks omitted.) Supra ¶ 42. However, the
majority's finding in this case goes against the majority's analysis. I would grant Mr. Spain's
motion to quash the arrest.

-18-

No. 1-16-3184

¶ 55

Therefore, I respectfully dissent.

-19-

No. 1-16-3184

No. 1-16-3184

Cite as:

People v. Spain, 2019 IL App (1st) 163184

Decision Under Review:

Appeal from the Circuit Court of Cook County, No. 16-CR2276; the Hon. Timothy Joseph Joyce, Judge, presiding.

Attorneys
for
Appellant:

James E. Chadd, Patricia Mysza, and Maggie A. Heim, of State
Appellate Defender's Office, of Chicago, for appellant.

Attorneys
for
Appellee:

Kimberly M. Foxx, State's Attorney, of Chicago (Alan J.
Spellberg, and Tasha-Marie Kelly, Assistant State's Attorneys,
of counsel), for the People.

-20-

